No. ______________
IN THE

Supreme Court of the United States
ROBERT W. MAUTHE, M.D., P.C., individually and
as the representative of a class of similarly-situated
persons,

Petitioner,
v.
OPTUM, INC., and OPTUMINSIGHT, INC.,
__________________

Respondents.

On Petition for Writ of Certiorari to the United
States Court of Appeals for the Third Circuit
__________________
PETITION FOR WRIT OF CERTIORARI
__________________
Phillip A. Bock, Counsel of Record
BOCK, HATCH, LEWIS & OPPENHEIM, LLC
134 N. La Salle Street, Ste. 1000
Chicago, IL 60602
(312) 658-5500

phil@classlawyers.com
Counsel for Petitioner
September 23, 2019

QUESTION PRESENTED
Did the Third Circuit err by holding that a
commercial fax cannot be an “advertisement” as
defined by the TCPA unless it promotes a direct sale
of the sender’s goods or services to the recipient where
the Sixth Circuit held the opposite in Matthew N.
Fulton, DDS, P.C. v. Enclarity, Inc., 907 F.2d 948 (6th
Cir. 2018), reh’g denied, 2018 U.S. App LEXIS 36638
(Dec. 27, 2018), pet. for cert. filed, Enclarity Inc. v.
Matthew N. Fulton DDS, P.C., No. 18-1258 (U.S.
March 27, 2019).

ii
PARTIES TO THE PROCEEDING
The caption contains the names of all of the parties
to the proceeding below.
CORPORATE DISCLOSURE STATEMENT
Pursuant to the Court’s Rule 29.6, undersigned
counsel states that Petitioner, Robert W. Mauthe,
M.D., P.C., has no parent corporation and that no
publicly held company owns 10% or more of its stock.
PROCEEDINGS IN OTHER COURTS

Robert Mauthe, M.D., v. Optum, Inc. and
Optuminsight, Inc., No. 17-1643, United States
District Court for the Eastern District
Pennsylvania. Judgment entered July 27, 2018.

of

Robert Mauthe, M.D., v. Optum, Inc. and
Optuminsight, Inc., No. 18-2894, United States Court

of Appeals for the Third Circuit. Judgment entered
July 3, 2019.

There are no other proceedings in state or federal trial
or appellate courts, or in this Court, directly related
to this case within the meaning of this Court’s Rule
14.1(b)(iii).

iii
TABLE OF CONTENTS
QUESTION PRESENTED ......................................... i
PARTIES TO THE PROCEEDING ........................... ii
CORPORATE DISCLOSURE STATEMENT ........... ii
PROCEEDINGS IN OTHER COURTS..................... ii
APPENDIX ................................................................. v
TABLE OF AUTHORITIES ..................................... vi
PETITION FOR WRIT OF CERTIORARI ................ 1
OPINIONS BELOW................................................... 3
JURISDICTION ......................................................... 3
STATUTES AND REGULATIONS INVOLVED ...... 4
A. The Telephone Consumer Protection Act
(“TCPA”), 47 U.S.C. §227. ............................... 4
B. The
Codified
FCC
Regulation
Implementing the TCPA, 47 C.F.R.
§64.1200(f) (15). ............................................... 4
STATEMENT OF THE CASE ................................... 5
A. Statement of Facts. ......................................... 5
B. Procedural History. ....................................... 10
REASONS FOR GRANTING THE PETITION ...... 17
A. The Court Should Hold the Petition for
Enclarity and Then Consider Vacating
and Remanding. ............................................ 17

iv
B. If the Court Does Not Remand, It Should
Grant Plenary Review. .................................. 19
1. The Circuits are divided on the
meaning of “advertisement” under the
TCPA in situations where the fax
recipient is not the ultimate intended
purchaser of the identified goods or
services. .................................................... 19
2. The opinion below conflicts with the
decisions of other circuits bearing on
the same issue. ......................................... 20
3. The opinion below is contrary to the
plain language of the TCPA’s
definition of a fax “advertisement.” ......... 27
4. The opinion below runs contrary to the
legislative history of the TCPA. .............. 28
5. The opinion below runs contrary to the
FCC’s multiple interpretations of the
TCPA that broadly construe the term
“advertisement.” ....................................... 30
CONCLUSION ................................................... 31

v
APPENDIX
APPENDIX A
OPINION OF THE UNITED STATES
COURT OF APPEALS FOR THE THIRD
CIRCUIT, FILED MAY 28, 2019 ........................1a
APPENDIX B
MEMORANDUM OPINION OF THE
UNITED STATES DISTRICT COURT FOR
THE
EASTERN
DISTRICT
OF
PENNSYLVANIA, FILED JULY 27, 2018 .......12a
APPENDIX C
DENIAL OF REHEARING OF THE
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT, FILED JULY
25, 2019 ..............................................................32a

vi
TABLE OF AUTHORITIES
Cases

Comprehensive Health Care Systems of the
Palm Beaches, Inc. v. M3 USA Corp., Case

No. 16-cv-80967-BLOOM/Valle, 2017 WL
108029 (S.D. Fla. Jan. 11, 2017) ......................... 21

Enclarity, Inc. v. Matthew N. Fulton DDS,
P.C., No. 18-1258 (U.S. March 27, 2019) ..... i, 2, 18
Herrick v. QLess, Inc., 216 F. Supp. 3d 816

(E.D. Mich. 2016) ................................................. 21

Matthew N. Fulton, DDS, P.C. v. Enclarity,
Inc., 907 F.2d 948 (6th Cir. 2018), reh’g
denied, 2018 U.S. App LEXIS 36638 (Dec.

27, 2018) .............................................................. i, 2

Mauthe v. ITG Inc., No. 18-1968, 2019 U.S.

Dist. LEXIS 147171 (Aug. 29, 2019) ................... 21

Mauthe v. Nat’l Imaging Assocs., Inc., No. 18-

2119, 2019 U.S. App. LEXIS 11232 (3d Cir.
Apr. 17, 2019) ....................................................... 17

Mussat v. Enclarity, Inc., No. CIV. A. 16-07643,

2018 WL 1156200 (N.D. Ill. Mar. 5, 2018) .......... 21

PDR Network, LLC v. Carlton & Harris
Chiropractic, Inc., 131 S. Ct. 2051 (June 20,

2019) ..................................................................... 19

Physicians Healthsource, Inc. v. Boehringer
Ingelheim Pharms., Inc., 847 F.3d 92 (2d

Cir. 2017) .................................................. 18, 19, 20

vii

Physicians Healthsource, Inc. v. Stryker Sales
Corp., 65 F. Supp. 3d 482 (W.D. Mich. 2014)

(amended Jan. 12, 2015)...................................... 21

Robert W. Mauthe, M.D., P.C. v. Optum Inc.,

925 F.3d 129 (3d Cir. 2019) ....................... 3, 16, 28

Sandusky Wellness Ctr., LLC v. Medco Health
Sols., Inc., 788 F.3d 218 (6th Cir. 2015).............. 13
Statutes
28 U.S.C. § 1254 ......................................................... 3
28 U.S.C. § 2101 ......................................................... 3
47 U.S.C. § 227 ........................................................... 4
47 U.S.C. § 227(a)(5) ............................................ 1, 28
Rules
Fed. R. App. P. 35(c)................................................... 3
Fed. R. App. P. 40(a)(1) .............................................. 3
Sup. Ct. R. 13.5 .......................................................... 3
Regulations
47 C.F.R. § 64.1200(f) (15) ......................................... 4

PETITION FOR WRIT OF CERTIORARI
Robert W. Mauthe, M.D., P.C. (“Plaintiff”)
petitions for a writ of certiorari to review the
judgment of the United States Court of Appeals for
the Third Circuit.
The Telephone Consumer Protection Act (“TCPA”)
broadly defines an “advertisement” as a fax
containing “any material advertising the commercial
availability or quality of any property, goods, or
services which is transmitted to any person.” 47
U.S.C. §227(a)(5) (emphases added). This case
involves an unsolicited and unwanted fax to
Plaintiff’s medical practice requesting its contact
information for a database Defendants sell or license
to health care, insurance, and pharmaceutical
companies. At issue is whether such a fax is an
“advertisement” under the TCPA, because while it
promoted the commercial availability and quality of
the database as a means of inducing Plaintiff’s
response to Defendants’ request for the information
they intended to market and sell to others, the fax did
not offer to sell or license the Database to Plaintiff.
In an earlier case, the Sixth Circuit held that a
virtually identical fax from Defendants’ competitor
could be an advertisement because “[t]he fax solicits
information to verify its system of provider
information, which Defendants make commercially
available to other health care organizations, who may
subject [the plaintiff] to future unsolicited
advertising.” Matthew N. Fulton, DDS, P.C. v.
Enclarity, Inc., 907 F.2d 948 (6th Cir. 2018), reh’g

2

denied, 2018 U.S. App LEXIS 36638 (Dec. 27, 2018)
(“Enclarity”). A petition for certiorari is pending in
Enclarity. Enclarity, Inc. v. Matthew N. Fulton DDS,
P.C., No. 18-1258 (U.S. March 27, 2019).
In the present case, the Third Circuit ignored
Enclarity, and reached the opposite conclusion. The
court of appeals acknowledged that “defendants
intended their faxes to obtain information enhancing
the quality of their services, and thus reasonably
calculated their faxes to increase their profits by
keeping their database updated.” 925 F.3d at 135.
However, the court held that “the faxes did not
attempt to influence the purchasing decisions of any
potential buyer, whether a recipient of a fax or a third
party.” Ibid. The court also held that Plaintiff had not
shown that the fax was a pretext for future
advertising, because there was no evidence that
Defendants “intended to send [Plaintiff] Mauthe any
future faxes, let alone any more advertisements.”

Ibid.

The Third Circuit’s opinion ignored the TCPA’s
broad definition of “advertisement” and literally
opens the floodgates to creative fax marketing.
Certiorari should be granted to resolve the split
among the Circuits on the standard for determining
whether a fax is an advertisement as defined by the
TCPA.

3
OPINIONS BELOW
The opinion of the Third Circuit below is reported
at Robert W. Mauthe, M.D., P.C. v. Optum Inc., 925
F.3d 129 (3d Cir. 2019) and reproduced at App.1a. The
memorandum opinion of the district court granting
Defendants’ motion for summary judgment is
reported at Robert W. Mauthe, M.D., P.C. v. Optum
Inc., 2018 U.S. Dist. LEXIS 125796 (E.D. Pa. July 27,
2018) and reproduced at App.12a.
JURISDICTION
The judgment of the court of appeals was entered
on May 28, 2019. Fourteen days later, Plaintiff filed a
timely Petition for Rehearing or for Rehearing en
Banc on June 12, 2019. Fed. R. App. P. 35(c), 40(a)(1).
The court of appeals denied Plaintiff’s petition on
June 25, 2019. App.32a.
This petition is timely because it is being filed
within 90 days of the Third Circuit’s denial of
Plaintiff’s petition for rehearing or for rehearing en
banc. 28 U.S.C. §2101(c); Sup. Ct. R. 13.5. This Court
has jurisdiction to hear this petition under 28 U.S.C.
§1254(1).

4
STATUTES AND REGULATIONS INVOLVED
A. The Telephone Consumer Protection Act
(“TCPA”), 47 U.S.C. §227.
Restrictions on use of telephone equipment
(a) Definitions
As used in this section-***
(5) The term “unsolicited advertisement”
means
any
material
advertising
the
commercial availability or quality of any
property, goods, or services which is
transmitted to any person without that
person’s prior express invitation or permission,
in writing or otherwise.
B. The Codified FCC Regulation Implementing the
TCPA, 47 C.F.R. §64.1200(f) (15).
The term unsolicited advertisement means any
material
advertising
the
commercial
availability or quality of any property, goods, or
services which is transmitted to any person
without that person’s prior express invitation
or permission, in writing or otherwise.

5
STATEMENT OF THE CASE
A. Statement of Facts.
Plaintiff commenced this action on April 11, 2017,
by filing a complaint alleging that defendants Optum,
Inc. and OptumInsight, Inc. (collectively “Optum” or
“Defendants”) violated the TCPA by sending Plaintiff
an unsolicited advertisement by facsimile. CAAppx020. 1 Plaintiff alleged that Optum sent the same
“junk fax” to a class of others. Ibid.
Optum’s fax touted its commercially available
“Optum Provider Database” (the “Database”), which
Optum says contains demographic data about
medical providers throughout the country, and the fax
solicited Plaintiff’s participation in it. CA-Appx039041.
Optum licenses access to the Database to its
customers for profit. CA-Appx121-125. Optum
considers the Database its “asset,” and the licensing
and use of the Database by its customers as “services.”
CA-Appx422:12-25.
Optum’s business is licensing the Database to
customers. CA-Appx447-452. Optum’s fax solicited
Plaintiff’s participation in the Database, requesting
that Plaintiff verify or update its demographic data,
“CA-Appx” refers to Plaintiff-Appellant’s Four-Volume
Appendix filed in the court of appeals, Third Cir. No. 18-2984
(filed December 13, 2018).
1

6
and stated that Plaintiff’s information would “be
promptly updated” in the Database. CA-Appx039041. The fax stated that Plaintiff’s data would be
“used by health care related organizations to aid in
claims payment, assist with provider authentication
and recruiting, augment their own provider data,
mitigate health care fraud and publish accurate
provider directories.” Ibid. Discovery elucidated the
meaning of these assertions.
Optum refers to the Database as an “asset”
because the value of the Database is the data itself,
which can be used in a number of different ways to
provide services and value for Optum’s customers.
CA-Appx422:12-25. The Database was “developed to
help companies improve the quality of their provider
data.” CA-Appx474:10-19. Optum intends the
Database to provide “a source of truth” for the
accuracy of healthcare provider data for Optum’s
customers, and includes data about all medical
healthcare providers. CA-Appx576-77. Optum
charges customers a license fee to use the Database.
CA-Appx447-452. All of Optum’s license fees are
“really based upon the data, the volume of data and
the data elements that you receive back.” CAAppx451:11-13; 487-488.
Optum sells or licenses the Database to its
customers in three ways. CA-Appx447-452. The first
way is through an “extract of the database.” CAAppx447:25-448:1. Optum’s customers request a
subset of the Database, request how frequently they

7
want the data, and pay a license fee, and then Optum
delivers the “data set” to the customers. CA-Appx448449. The second way is via the “comparison,
correction, and augmentation service.” CAAppx449:13-16. Customers send Optum a list of the
customers’ healthcare provider data, Optum
compares the customers’ data to the Database, the
customers pay a license fee to Optum, and then
Optum returns the customers’ original data file
together with the “augmented or supplemental data”
based on Optum’s Database. CA-Appx449-450. The
third way is by providing customers with “an online
tool that allows them to access the [D]atabase.” CAAppx450:17-20. Optum charges customers a license
fee to “access the data and pull back whatever data
they happen to need.” CA-Appx450:20-23.
Optum created the Database in 2004. CAAppx574:9-15. Initially, it included only doctors,
dentists, and optometrists, but the Database has
“expanded to the ancillary specialties and then over
the last few years [Optum] started adding the nurse
practitioners and the physician assistants because
they do have the ability of seeing patients now and
writing scripts, so they’re all included now as well.”
CA-Appx577:1-8. In 2004, Optum created an offshore
team in India to help verify provider data. CAAppx586, 598. Optum had 250 people in India placing
outbound phone calls to medical providers to verify
their data. Ibid. at 598. “After the first year, priority
shifted, new leadership came in, and they didn’t want
to spend the $2 million on the 250 agents and they

8
wanted to cut it down to 50.” CA-Appx598:12-15.
There are now only 14 offshore agents located in
India. CA-Appx584-85. Despite having cut the
number of offshore agents, Optum still demanded
that its employees meet the same internal objective;
i.e., the quality of the Database should increase every
year. CA-Appx598-99.
As a result of the downsizing, and the increase in
the amount of data, Optum looked for other ways to
improve the quality and marketability of the
Database. CA-Appx599-600. To that end, Optum
sends faxes, like the fax Plaintiff received, on a daily
basis. CA-Appx597:8-14, 600, 604-06. Through these
fax campaigns, Optum receives confirmed or updated
demographic information from medical providers at a
return of 15 per hour, compared to a return of three
per hour through telephone voice calls. CA-Appx601.
Sending such faxes was a “no-brainer” because it
improved the efficiency and productivity of Optum’s
primary goal of enhancing the quality and
marketability of the Database by “get[ting] rid of stale
data” and “mak[ing] sure that [Optum has] providers
collapsed together correctly.” CA-Appx602-603, 610611, 617.
Optum’s fax to Plaintiff touted the Database’s
commercial qualities and its availability. CAAppx039.
Optum
promoted
the
Database’s
commercial qualities to fax recipients, because data
verification is critical to selling the Database, and
Optum decided it was important that the fax

9
recipients understood that the Database was a highquality product. CA-Appx628-629. Otherwise,
recipients might ignore the faxes, which would
undermine the efficiency and effectiveness of Optum’s
faxing campaigns. CA-Appx602-603.
Optum tells potential customers that the
Database “can deliver immediate and substantial
financial benefits across your enterprise.” CAAppx662, 500:16-501:22. Optum represents that the
Database can save customers money by reducing
manual claims adjudication, returned mail,
redundant mailings, incorrect payments and 1099
forms, prompt pay penalties and fines, unnecessary
adjustment requests and claims appeals, poor
provider/member relations and bad press, excess file
maintenance and rework, and excessive call center
staffing due to unnecessary correction calls. CAAppx651; CA-Appx500:16-504:14, 489:7-25, 544:9-25,
443:17-444:9, 457:19-23, 423:15-19, 506:6-17.
Optum tells potential customers that the
Database can provide positive financial benefit
through complete, correct, and consistent healthcare
provider data. CA-Appx500-504. Noting the high cost
imposed by bad or inaccurate healthcare provider
data, Optum markets the Database as a benefit to its
customers’ commercial endeavors. CA-Appx500:16501:22. Optum wants customers to start “thinking
about the return on investment for leveraging
[Optum’s] third-party data set.” CA-Appx501:11-22.

10
Optum’s competitors have developed similar
provider-database assets, and sell that information to
the same client base to which Optum seeks to license
its Database. CA-Appx461. “The primary player in
this space is LexisNexis [Enclarity]. … There’s
another out there called SK & A … there are [also] a
number of small players.” CA-Appx461-62. Optum
believes that its “outreach verification program,”
including the fax outreach component, makes its
Database better than the competition. CA-Appx617:110, 657-658. Optum is committed to investing in the
continuous improvement of its outreach verification
program to improve the efficiency and productivity of
its efforts to improve the quality and marketability of
the Database. CA-Appx598:10-24, 649-663.
B. Procedural History.
Plaintiff commenced this action on April 11, 2017,
by filing a two-count complaint against Defendants.
CA-Appx020. Count I alleged that the fax was an
unsolicited “advertisement” Optum sent in violation
of the TCPA. Ibid. at ¶¶ 1-61. Count II alleged that
the sending of the fax constituted common-law
conversion. Ibid. at ¶¶ 62-69. Optum moved to
dismiss, arguing that as a matter of law, the fax was
not an advertisement, that the district court therefore
should dismiss Count I, and that the court should
decline to exercise supplemental jurisdiction over the
Count II state law claim. CA-Appx147.

11
On August 16, 2017, Plaintiff filed an amended
complaint (“the Complaint”). CA-Appx119. The
Complaint included 13 additional allegations
detailing the way in which Optum’s faxes were part
of, and a pretext for, Optum’s marketing and sale of
the Database to customers for profit. CA-Appx119 ¶¶
13, 15-18, 21-22, 25, 27-28, 31, 33-34. Optum again
moved to dismiss, making the same arguments set
forth in its original motion to dismiss. CA-Appx178
(motion to dismiss amended complaint).
On October 17, 2017, the district court denied
Optum’s motion to dismiss. CA-Appx287. The denial
was without prejudice to Optum raising the same
arguments on summary judgment, and the court
ordered the parties to engage in limited discovery “on
the question of whether the fax was an advertisement
or a pretext; i.e., whether it was part of a larger
advertising scheme.” Ibid.
On April 6, 2018, Optum moved for summary
judgment, again arguing its fax was not an
“advertisement” under the TCPA. CA-Appx057.
Plaintiff filed a response, presenting evidence and
argument that Optum sent the fax in furtherance of
its fundamental business model; i.e., to enhance the
Database’s quality and marketability in order to
increase its sales and licensing to customers, thereby
generating profit to Optum. CA-Appx288, 310, 396.
Stated differently, Plaintiff presented evidence that
Optum’s fax was an advertisement because it was
sent for the purpose of obtaining indirect financial

12
gain. CA-Appx289-305. Optum filed a reply, arguing
the fax was not an advertisement because it did not
promote the commercial availability or quality of any
goods or services available for direct purchase by
Plaintiff. CA-Appx327-329, 331, 334-37, 339.
On July 27, 2018, the district court granted
Optum’s motion for summary judgment on Plaintiff’s
TCPA claim. App-12a. The court held that Optum’s
fax “was neither an advertisement nor a pretext for
an advertisement.” App-13a. More specifically, the
court held that, on its face, the fax “did not market the
availability of a good or service, nor was it a pretext
for a larger scheme to market the availability of a
good or service.” App-15a. The district court
repeatedly emphasized the fact that Optum’s
Database—the primary subject matter of the fax—
was neither offered nor available for sale to Plaintiff
or any other recipient of the fax. App-15a. (“Optum
does not market the Provider Database to individual
provider offices”); App-17a (“the fax states ‘… This is
not an attempt to sell you anything.’ [] And discovery
has confirmed that this fax was not an attempt to sell
anything to the plaintiff.”); App-21a (“the fax sent to
the plaintiff was not … an offer to sell the database to
the plaintiff or anyone else”).
The district court acknowledged that the fax could
be construed to “declare” the availability of Optum’s
Database. App-28a (“At most, the fax ‘declares’ the
availability of a good or service”). But the court drew
a distinction between “declaring” and “promoting.”

13

Ibid. (“…merely declaring the availability of a good or

service is insufficient. The fax must draw the public’s
attention to something to promote its sale….”)
(citations and internal quotation marks omitted).
App-25a ([F]or a fax to violate the TCPA it must do
more than declare the commercial availability of a
good or service—it must ‘promote’ the availability of a
good or service”), citing Sandusky Wellness Ctr., LLC
v. Medco Health Sols., Inc., 788 F.3d 218, 222 (6th Cir.
2015)).
Having concluded that the fax was not an
advertisement on its face, the court considered
whether the fax was a pretext for a larger advertising
scheme. App-29a (“Because the fax is not facially an
advertisement, the court must consider whether the
fax was a pretext for a larger advertising scheme[,] …
[i.e.,] ‘part of an overall marketing campaign to sell
property, goods, or services’”). Notwithstanding
evidence confirming that Optum sent the fax as part
of an outreach effort to improve the quality of the
Database in order to enhance its marketability to
Optum’s customers, all in furtherance of Optum’s
ultimate profit, App-15a (finding “undisputed
material fact[]” that “[t]he [D]atabase is usually
‘purchased and used by organizations that manage a
health care network and pay claims…’”), the court
held there was no evidence that the fax was part of an
overall marketing campaign to sell Optum’s goods or
services. App-29a (“Discovery … has shown that the
fax here was not a pretext for a larger advertising
scheme”).

14
The district court reached this seemingly
anomalous conclusion by rejecting the notion that
Optum’s motive to profit indirectly from the fax—i.e.,
by marketing the enhanced quality of the Database to
its customers, leading to increased sales and licensing
of the Database to such customers—could be relevant
to the determination of whether the fax was an
advertisement by pretext. App-29a (describing
Plaintiff’s pretext argument to be “functional
equivalent” of Plaintiff’s “indirect future economic
benefit argument”). Despite acknowledging that the
FCC had taken a “broad view” of the meaning of the
term “advertisement” under the TCPA, App-18a, the
court rejected the notion that a defendant’s intention
to profit indirectly by sending a fax can make the fax
an advertisement. App-22a (“The TCPA … does not
prohibit faxes sent in furtherance of indirect
commercial solicitations or transactions with third
parties. *** [F]axes sent in furtherance of indirect
commercial solicitations or transactions with third
parties are not unsolicited advertisements.”); App-26a
([T]he court rejects the plaintiff’s argument that any
fax that indirectly furthers a commercial transaction
with a third party is an advertisement”).
On appeal, the Third Circuit affirmed the district
court’s opinion. The appellate court began by noting
that “liability for a TCPA violation is not necessarily
limited to a situation in which fax is sent to potential
direct purchasers of the sender’s product or services.”
App-5a. Because Plaintiff did not claim to be a direct

15
purchaser, the court concluded that the fax was not
an “advertisement” as that term is conventionally
used. Ibid. However, the court considered “a possible
broader basis for liability predicated on the fact that
this case involves third parties beyond defendants
and [Plaintiff] Mauthe, i.e., the users of defendants’
database.” Ibid.
The court held that a TCPA violation could be
based on “third party liability” in some circumstances,
giving the example of “a fax sent to a doctor
encouraging the doctor to prescribe a particular drug
to the doctor’s patients who, rather than the doctor,
are the likely purchasers of the sender’s product.”
App-5a.
The court created a three-prong test to determine
whether a fax is an “advertisement” in the “third
party liability” context:
We are satisfied that to establish third-party
based liability under the TCPA a plaintiff must
show that the fax: (1) sought to promote or
enhance the quality or quantity of a product or
services being sold commercially; (2) was
reasonably calculated to increase the profits of
the sender; and (3) directly or indirectly
encouraged the recipient to influence the
purchasing decisions of a third party.… It is not
enough that the sender sent a fax with a profit
motive—in order to show that the sender is
trying to make a sale, there must be a nexus

16
between the fax and the purchasing decisions of
an ultimate purchaser whether the recipient of
the fax or a third party. The liability standard
… in a third-party based liability situation,
hinges on whether the fax was somehow
intended to influence a potential buyer's
decision in making a purchase, irrespective of
whether the sender sent the fax to the potential
buyer or to a third party and must have been
intended to or at least be capable of influencing
a buyer’s purchasing decision.
App-7a.
The court concluded that Plaintiff did not satisfy
this test:
Though defendants intended their faxes to
obtain information enhancing the quality of
their services, and thus reasonably calculated
their faxes to increase their profits by keeping
their database updated, the faxes did not
attempt to influence the purchasing decisions of
any potential buyer, whether a recipient of a fax
or a third party. Moreover, the fax sent to
[Plaintiff] Mauthe did not encourage him to
influence the purchasing decisions or those of a
third party.
App-10a.

17
Assuming that a fax sender could be held liable
under a “pretext theory of liability under the TCPA,”
the Third Circuit held that Plaintiff could not prevail
on such a “pretext” claim because “there was no
evidence that defendants ‘intended to send Mauthe
any future faxes, let alone any more advertisements.”
App-2a, quoting Mauthe v. Nat’l Imaging Assocs.,
Inc., No. 18-2119, 2019 U.S. App. LEXIS 11232 (3d
Cir. Apr. 17, 2019).
REASONS FOR GRANTING THE PETITION
A. The Court Should Hold the Petition for Enclarity
and Then Consider Vacating and Remanding.
The Court should hold this petition pending the
outcome in Enclarity. After a decision in Enclarity, it
may be appropriate to grant this petition, vacate the
judgment below, and remand for further proceedings
in light of the decision.
Like this case, Enclarity involves a healthcare
provider’s claim for damages under the TCPA based
on receipt of a fax that the provider contends was a
solicitation for information. Like Defendants here,
the Enclarity defendant maintains and sells a
database of medical provider information. Like
Defendants here, the Enclarity defendant faxed a
form to medical providers asking for verification of
their contact information for inclusion in a
commercially-available database.

18
After the district court dismissed the Enclarity
plaintiff’s TCPA claim, the Sixth Circuit reversed.
The court held that the plaintiff had asserted a
plausible TCPA claim “insofar as it alleged that the
fax served as a pretext to send [plaintiff] Fulton
additional marketing materials.” 907 F.3d at 949. To
allege a “fax-as-pretext” theory, according to the panel
majority, TCPA plaintiffs need only posit a
“commercial nexus” between the fax and the sender’s
business. 907 F.3d at 955 (quoting Physicians

Healthsource, Inc. v. Boehringer Ingelheim Pharms.,
Inc., 847 F.3d 92, 95-96 (2d Cir. 2017)). The Sixth

Circuit thus concluded that the plaintiff had alleged a
sufficient “nexus” here by asserting that Enclarity’s
“fax solicits information to verify its system of
provider information, which Defendants make
commercially available to other health care
organizations, who may subject Fulton to future
unsolicited advertising.” Ibid.

The Enclarity defendant has filed a petition for
certiorari now pending in this Court, Enclarity Inc. v.
Matthew N. Fulton DDS, P.C., No. 18-1258 (U.S.
March 27, 2019). The issue presented is “Whether
faxes that only request information and propose no
commercial transaction with recipients are
‘advertisements’ under the TCPA.” Enclarity thus
presents the same question presented here.
If the Court grants the petition in Enclarity, the
Court should either grant this petition and take the
appeals together or, alternatively, hold this petition

19
and, in light of the ultimate disposition in Enclarity,
if appropriate, grant this petition, vacate the Third
Circuit’s judgment, and remand for further
consideration in light of Enclarity.
B. If the Court Does Not Remand, It Should Grant
Plenary Review.
1. The Circuits are divided on the meaning of
“advertisement” under the TCPA in situations
where the fax recipient is not the ultimate
intended purchaser of the identified goods or
services.
The question of what is an “advertisement” under
the TCPA’s prohibition of unsolicited facsimiles, and
the weight owed FCC statements on the issue, has
generated substantial litigation and is the subject of
numerous recent decisions with disparate results.
See, e.g., Enclarity, 907 F.3d 948; PDR Network, LLC
v. Carlton & Harris Chiropractic, Inc., 139 S. Ct. 2051
(2019); Physicians Healthsource, Inc. v. Boehringer
Ingelheim Pharms., Inc., 847 F.3d 92, 96 (2d Cir.
2017); Ira Holtzman, C.P.A. v. Turza, 728 F.3d 682
(7th Cir. 2013).
In fashioning its own test for defining
“advertisement” in this case, the Third Circuit did not
cite or discuss the sister circuit opinions, and reached
a conclusion contrary to them. Not only does the
opinion below directly conflict with Enclarity, but its
underlying reasoning and standard announced are in

20
conflict with the reasoning of these sister circuit
opinions.
The meaning of “advertisement” under the TCPA
is a question on an “important matter” where the
circuit courts of appeal have disagreed, so there is a
need for this Court to provide a uniform national
standard.
2. The opinion below conflicts with the decisions
of other circuits bearing on the same issue.
In Boehringer, supra, the Second Circuit reviewed
the dismissal of a TCPA action involving a fax
inviting doctors to a dinner at which defendant
allegedly would promote its pharmaceutical drugs.
847 F.3d at 93, 95, 97. The district court held it was
not an advertisement. Ibid. at 94. The Second Circuit
reversed, holding it would be an advertisement if
defendant intended to advertise its drugs to fax
recipients attending the dinner. Ibid. at 95. The court
understood defendant was not promoting its drugs for
sale to fax recipients, but rather attempting to induce
them to prescribe its drugs to patients, who would
purchase those drugs from a pharmacy, which in turn
purchases the drugs from defendant, thereby
indirectly translating to increased sales of
defendant’s drugs. Ibid. at 97.
In Carlton, supra, the Fourth Circuit reviewed
dismissal of a TCPA action involving a fax offering
doctors a free e-book. Carlton & Harris Chiropractic,

21

Inc. v. PDR Network, LLC, 883 F.3d 459, 461 (4th Cir.
2018), vacated and remanded, 139 S. Ct. 2051 (2019). 2

It was not alleged the fax sought to sell anything to
recipients. Nevertheless, the Fourth Circuit held it
was an advertisement because the FCC has held faxes
offering free goods or services are advertisements.
Ibid. at 463-68. The Fourth Circuit noted it was
plausible to infer defendant received compensation
from someone for distributing free e-books to fax
recipients, even if recipients never bought anything
from defendant. Ibid. at 468. 3
The Court granted the defendant’s petition for certiorari on
the narrow question of the proper deference to be paid to the
FCC’s statements on the issue in light of the Hobbs Act, 28
U.S.C. §2342(1). Carlton, supra, 139 S. Ct. at 2053. The Court
did not reach the issue, however. Ibid. Instead, the Court vacated
and remanded for the Fourth Circuit to consider preliminary
issues necessary to resolve the proper application of the Hobbs
Act to the FCC statements at issue. Carlton, supra, 139 S. Ct. at
2055-2056.
2

District court decisions are in accord. See Mussat v.
Enclarity, Inc., No. CIV. A. 16-07643, 2018 WL 1156200, at *5
(N.D. Ill. Mar. 5, 2018); Comprehensive Health Care Systems of
the Palm Beaches, Inc. v. M3 USA Corp., Case No. 16-cv-809673

BLOOM/Valle, 2017 WL 108029, at *2 (S.D. Fla. Jan. 11, 2017);
Physicians Healthsource, Inc. v. Stryker Sales Corp., 65 F. Supp.
3d 482, 491 (W.D. Mich. 2014) (amended Jan. 12, 2015); Herrick
v. QLess, Inc., 216 F. Supp. 3d 816, 820 (E.D. Mich. 2016); AL
and PO Corp. v. Med-Care Diabetic & Med. Supplies, Inc., No.
14 C 01893, 2014 WL 6999593, at *3 (N.D. Ill. Dec. 10, 2014).
But see Mauthe v. ITG Inc., No. 18-1968, 2019 U.S. Dist. LEXIS
147171 (Aug. 29, 2019) (applying Optum standard for thirdparty based liability).

22
Without mentioning these decisions, the Third
Circuit’s opinion below adopted a standard that
irreconcilably conflicts with them. Although the Third
Circuit seemingly attempted—through the third
prong of its standard—to accommodate the
Boehringer scenario (while at the same time never
actually mentioning Boehringer), 4 its attempted
accommodation fails. In the Boehringer context, drug
manufacturers sell their drugs to pharmacies, which
in turn sell those drugs to patients with prescriptions
written by doctors. Doctors do not purchase the drugs;
they are merely a means by which drug
manufacturers—through fax promotion directed to
the doctors—seek to induce them to take actions
(write prescriptions) generating increased sales by
the drug manufacturers to third parties (pharmacies).
847 F.3d at 97. In this scenario, the “nexus” between
the drug manufacturer’s fax and the “inducement”
leading the pharmacy to purchase more of the
manufacturer’s drugs is indirect and attenuated, but
Boehringer held this nexus sufficient to sustain a
viable TCPA claim.
Here, the nexus between (1) Defendants’ fax, and
(2) ultimate inducement leading Defendants’
customers to purchase/license Defendants’ database,
In providing an example of a viable case of so-called thirdparty based liability, the panel decision actually hypothesizes a
scenario similar to that at issue in Boehringer, i.e., a fax
soliciting a physician to prescribe the sender’s pharmaceutical
drugs to his patients.

4

23
is no more indirect or attenuated than that held
sufficient in Boehringer. The marketability and
profitability of Defendants’ Database derives from its
accuracy and reliability, and Defendants sent the fax
to maintain and improve that accuracy and
reliability, intending that doing so would induce
increased sales/licensing of the database to their
customers. In both Boehringer and the case at bar, fax
recipients are cogs in the defendants’ marketing
machines, solicited by faxes to take actions ultimately
intended to indirectly induce third parties to purchase
more of the defendants’ goods or services. There is no
way to square the decision below with Boehringer.
And yet, it is unclear whether the conflict between
the Third Circuit decision and Boehringer derives
from the Third Circuit standard for “third-party
based liability” itself, or from its (mis)application of
that standard to the facts of the case at bar. The third
prong of the standard speaks to a “nexus” between the
fax and the ultimate inducement leading a third party
to purchase the defendant’s goods or services. As
indicated above, such a nexus exists in the case at bar.
Indeed, the decision below acknowledges the nexus:
…[D]efendants intended their faxes to
obtain information enhancing the
quality of their services, and thus
reasonably calculated their faxes to
increase their profits by keeping their
database updated….

24
App-10a.
Although unstated, the Third Circuit panel
obviously was acknowledging that the enhanced
quality of Defendants’ database, resulting from the
faxes sent by Defendants, would trigger increased
profits to Defendants by inducing customers to
increase purchasing/licensing of the database.
Nevertheless, the court held this nexus insufficient to
satisfy the third prong of its standard because:
…[T]he faxes did not attempt to
influence the purchasing decisions of
any potential [third-party] buyer….
Moreover, the fax sent to Plaintiff did
not encourage him to influence the
purchasing decisions … of a third party.
App-10a.
These findings are plainly erroneous, and actually
are contradicted by the court’s acknowledgement of
Defendants’ intentions in sending the faxes. The faxes
did attempt to influence the purchasing decisions of
Defendants’ customers through the improved quality
of the database that Defendants expected to result
from sending the faxes. And the fax sent to Plaintiff
did encourage it to influence the purchasing decisions
of Defendants’ customers by soliciting Plaintiff to take
actions that Defendants intended to have just that
effect.

25
If the Third Circuit refused to find a sufficient
nexus here because it concluded the demonstrated
nexus was too attenuated, (1) the court did not
articulate that reasoning, (2) its earlier articulation of
the standard neither stated nor implied that the
requisite nexus incorporated some corollary
requirement that the nexus be direct as opposed to
indirect, and (3) requiring that the nexus be direct is
irreconcilable with Boehringer.
The Third Circuit’s assertion that “the fax sent to
[Plaintiff] Mauthe did not encourage him to influence
the purchasing decisions … of a third party,” is
perplexing. App-10a. Admittedly, the fax did not tell
Plaintiff that the actions the fax solicited it to take
were intended to influence the purchasing decisions
of
Defendants’
customers,
but
Defendants
undisputedly knew the fax solicited Plaintiff to take
actions they intended to influence their customers’
purchasing decisions. Why should the status of the
fax as an advertisement depend on whether Plaintiff
understood the ultimate influencing/inducing effect of
its solicited actions upon Defendants’ customers? The
opinion below does not say, and there is no logical
explanation why Plaintiff’s understanding should
factor into the determination of whether the fax was
an “advertisement.”
If, after articulating its standard for third-party
based liability, the Third Circuit had held that
Plaintiff met that standard, Plaintiff would not object
to that standard because there would be no conflict

26
with Boehringer. But the court held Plaintiff did not
meet that standard, meaning either the standard is
flawed and conflicts with Boehringer or the standard
as articulated is correct, but the court misapplied it in
this case.
The opinion below also runs contrary to
observations by the Fourth Circuit in the freepromotion context (i.e., Carlton). There the fax
recipient was not asked to purchase anything, but the
court observed it was plausible the sender somehow
made money from someone by sending the faxes. 883
F.3d at 468 (“The free distribution of the e-book, then,
may not impose a financial cost on healthcare
providers, but [defendant] may nevertheless stand to
profit when a provider accepts a free copy”). Carlton
noted construing the TCPA term “advertisement”
must take account of “modern business models” and
marketing methods serving such models:
[R]equiring a fax to propose a specific
commercial transaction on its face takes
too narrow a view of the concepts of
commercial activity and promotion, and
ignores the reality of many modern
business models. *** [G]iving away
products in the hope of future financial
gain is a commonplace marketing tactic.
*** All told, we think it entirely
plausible that [defendant] distributes
the free e-books to further its own
economic interests.

27

Ibid.
Enclarity, supra, similarly noted that a fax may be

an advertisement without appearing to be so on its
face, and the “best ads” sometimes do just that. 907
F.3d at 953.
But the opinion below—whether viewed as
articulating a flawed standard or misapplying a
correct
standard—actually
rewards
creative
marketing designed for modern business models by
holding faxes serving the overall marketing purposes
of those business models fall outside the TCPA’s
reach. The opinion literally opens the floodgates to
creative fax marketing.
3. The opinion below is contrary to the plain
language of the TCPA’s definition of a fax
“advertisement.”
The Third Circuit’s decision is also contrary to the
TCPA’s plain language because it requires a nexus
between the recipient of the fax and promotion of the
sale of the sender’s goods or services. The TCPA’s
definition of “advertisement” requires no such nexus.
The TCPA broadly defines “advertisement” to
prohibit all “junk faxes” regardless of the proximity
between the targets of those faxes and the purchasers
of the sender’s goods or services:

28
The term “unsolicited advertisement” means
any material advertising the commercial
availability or quality of any property, goods, or
services which is transmitted to any person
without that person’s prior express invitation
or permission, in writing or otherwise.
47 U.S.C. §227(a)(5) (emphasis added). The definition
covers “any [such] material” sent to “any person.”
Ibid. It does not require a connection between the
recipient and the ultimate potential purchasers of the
sender’s goods or services. This makes sense because
the focus of the TCPA is to stop unwanted faxes that
promote the sender’s business at the expense of
recipients who have not given “prior express
invitation or permission.” Ibid. Why the sender
targeted the recipient should not matter. It should
only matter that the sender did so for the sender’s
profit without regard to the recipient’s wishes.
4. The opinion below runs contrary to the
legislative history of the TCPA.
The Third Circuit’s decision distinguishes between
“advertising faxes,” which the TCPA prohibits, and
“commercial faxes,” which supposedly are not
prohibited. App-6a (“[T]he TCPA only prohibits
unsolicited advertisements, not any and all faxes even
if sent for a commercial purpose. *** After all, a
commercial entity takes almost all of its actions with
a profit motivation.”) (emphasis in original). This

29
purported distinction is unsupported
inconsistent with, the legislative history.

by,

and

In particular, in Congressional Committee
Reports leading to the enactment of the 2005 JFPA
(amending the TCPA), the legislative history reflects
the terms “fax advertisements” and “commercial
faxes” being used synonymously and interchangeably.
See, e.g., S. Rep. 109-76, at 2 (“The purposes of this
legislation are to: Create a limited statutory exception
to the current prohibition against the faxing of
unsolicited advertisements to individuals without
their ‘prior express invitation or permission’ by
permitting such transmission by senders of
commercial faxes to those with whom they have an
established business relationship”) (emphasis added);
id. at 7 (“The legislation would result in new or
incremental costs for senders of commercial faxes …
and provide cost free mechanisms that allow
recipients to choose whether to receive future
commercial faxes”) (emphasis added).
The Third Circuit’s purported distinction between
supposedly lawful “commercial faxes” and unlawful
“advertising faxes” thus disserves the legislative
history of the TCPA. It also disserves the TCPA itself
because it carves out an entire category of
“commercial faxes” that the TCPA was intended to
prohibit, and effectively invites creative marketers to
develop faxes with obvious advertising purpose, but
shrouding that purpose just enough to avoid the
denomination “advertisement.” The TCPA is also

30
known as the Junk Fax Protection Act of 2005, Pub.L.
109-21, 119 Stat. 359 (2005). The decision below
creates an unwarranted gap in the protection against
unsolicited junk faxing that the TCPA was designed
to prohibit.
5. The opinion below runs contrary to the FCC’s
multiple interpretations of the TCPA that
broadly construe the term “advertisement.”
The FCC has not issued a formal rule or regulation
expressly addressing whether indirect financial gain
a sender receives by sending a fax makes it an
advertisement. But all of the FCC’s pronouncements
construing the TCPA term “advertisement” reflect a
broad construction. For example, the FCC has held
faxes offering free goods are advertisements. 2006
Rules, 71 F.R. at 25973. The FCC also has held faxes
inviting recipients to participate in surveys are
advertisements if the faxes are pretexts to future
marketing to the recipients. Id. Indeed, the FCC has
recognized very few exceptions to advertisement
status—e.g., exceptions for “bona fide ‘informational
communications’”
and
“transactional
communications.” Id. The FCC’s overall intent is
clear: commercial faxes containing advertising are
advertisements unless they fall within one of the
FCC’s enumerated exceptions.
In holding “commercial faxes” separate and
distinct from “advertising faxes” and not covered by
the TCPA’s junk-fax prohibitions, the Third Circuit

31
decision disserves the FCC’s long history of
rulemaking
liberally
construing
the
term
“advertisement” and did so without comment.
CONCLUSION
The Third Circuit’s decision directly conflicts with
the Sixth Circuit’s decision in Enclarity, and with the
reasoning of sister circuits, on the important issue of
the meaning of “advertisement” in a situation where
the fax recipient is not the intended direct purchaser
of the sender’s goods and services. The Court should
grant certiorari to consider this issue.
Respectfully submitted,
s/ Phillip A. Bock
Phillip A. Bock

Counsel of Record

BOCK, HATCH, LEWIS & OPPENHEIM, LLC
134 N. La Salle Street, Ste. 1000
Chicago, IL 60602
(312) 658-5500

phil@classlawyers.com
Counsel for Petitioner

APPENDIX

1a
Appendix A — Appendix
opinionAof the UNITED
STATES COURT OF APPEALS FOR THE
THIRD CIRCUIT, FILED MAY 28, 2019
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 18-2894
ROBERT W. MAUTHE, M.D., P.C.,
INDIVIDUALLY AND ON BEHALF OF
ALL OTHERS SIMILARLY SITUATED
v.
OPTUM INC., OPTUMINSIGHT, INC.
ROBERT W. MAUTHE, M.D., P.C.,
Appellant.
On Appeal from the United States District Court
for the Eastern District of Pennsylvania.
(D.C. Civ. No. 5-17-cv-01643)
Honorable Edward G. Smith, District Judge
March 8, 2019, Argued
May 28, 2019, Filed
BEFORE: AMBRO, RESTREPO,
and GREENBERG, Circuit Judges.
GREENBERG, Circuit Judge

2a
Appendix A
I. INTRODUCTION
This matter comes on before this Court on the appeal
of plaintiff Robert W. Mauthe M.D. P.C. challenging the
District Court’s grant of summary judgment against
its complaint brought under the Telephone Consumer
Protection Act, 47 U.S.C. § 227 (“TCPA”). We consolidated
this case for argument with Mauthe v. Nat’l Imaging
Assocs., Inc., No. 18-2119, 2019 U.S. App. LEXIS 11232,
2019 WL 1752591 (3d Cir. Apr. 17, 2019) (“NIA”), a case
that the same plaintiff filed against a different defendant
under the TCPA because the two cases raised similar
issues. Although the plaintiff in both cases is a professional
corporation, we will refer to the plaintiff as Robert W.
Mauthe, as though an individual, as we did in NIA. In
this case, Mauthe alleged that he received an unsolicited
advertisement via fax from defendants Optum, Inc. and
OptumInsight, Inc., related entities, in violation of the
TCPA and included in his complaint a supplemental
state law claim for common law conversion. Defendants
moved for summary judgment, and the Court granted
their motion on the TCPA claim and dismissed the state
law claim without prejudice, as it declined to exercise
jurisdiction over it. Robert Mauthe, M.D. PC v. Optum,
Civ. No. 17-1643, 2018 U.S. Dist. LEXIS 125796, 2018
WL 360912 (E.D. Pa. July 27, 2018) (“Optum”). For the
reasons stated below, we will affirm the order of the Court
in both respects.

3a
Appendix A
II. FACTUAL BACKGROUND
The facts of this case are essentially undisputed.
Defendants maintain a national database of healthcare
providers, containing providers’ contact information,
demographics, specialties, education, and related data.
Defendants market, sell, and license the database
typically to health care, insurance and pharmaceutical
companies, who use it to update their provider directories,
identify potential providers to fill gaps in their network
of providers, and validate information when processing
insurance claims. Obviously, it is important that the
information contained in the database be accurate and
Mauthe, who is a healthcare provider, does not contend
otherwise.
One of the ways defendants update and verify the
information in their database is to send unsolicited faxes
to healthcare providers listed in the database, requesting
them to respond and correct any outdated or inaccurate
information. The faxes inform the recipients that:
As part of ongoing data maintenance of our
Optum Provider Database product, Optum
regularly contacts healthcare practitioners
to verify demographic data regarding your
office location(s). This outreach is independent
of and not related to your participation in any
Optum network. By taking a few minutes to
verify your practice information is current,
your information will be promptly updated in
Optum Provider Database.

4a
Appendix A
This data is used by health care related
organizations to aid in claims payment, assist
with provider authentication and recruiting,
augment their own provider data, mitigate
healthcare fraud and publish accurate provider
directories.
Optum, 2018 U.S. Dist. LEXIS 125796, 2018 WL 3609012,
at *2. The faxes also advise the recipients that “[t]here
is no cost to you to participate in this data maintenance
initiative. This is not an attempt to sell you anything.”
Id. The fax that defendants sent Mauthe included these
provisions.
III. STANDARD OF REVIEW
We exercise de novo review on this appeal. See
Bradley v. West Chester Univ. of Pa. State Sys. of Higher
Educ., 880 F.3d 643, 650 (3d Cir. 2018). “Our review of the
District Court’s [summary judgment] decision is plenary,
and we apply the same standard as the District Court to
determine whether summary judgment was appropriate.”
State Auto Prop. & Cas. Ins. Co. v. Pro Design, P.C.,
566 F.3d 86, 89 (3d Cir. 2009). “[S]ummary judgment is
properly granted ‘if the movant shows that there is no
genuine dispute as to any material fact and the movant
is entitled to judgment as a matter of law.’” Sconiers v.
United States, 896 F.3d 595, 597 n.3 (3d Cir. 2018) (quoting
Fed. R. Civ. P. 56(a)).1
1. The District Court had jurisdiction under 28 U.S.C. § 1331
and we have jurisdiction under 28 U.S.C. § 1291.

5a
Appendix A
IV. DISCUSSION
Under the TCPA, it is unlawful to send an unsolicited
advertisement by fax. NIA, 2019 U.S. App. LEXIS 11232,
2019 WL 1752591, at *2. Mauthe asks us to hold that the
fax was an unsolicited advertisement which the TCPA
prohibited defendants from sending to him. In NIA, we
articulated the standard to determine when a fax has
been sent to a potential direct purchaser of a product or
service in violation of the TCPA, but we also opined that
liability for a TCPA violation is not necessarily limited
to a situation in which a fax is sent to potential direct
purchasers of the sender’s product or services. 2019 U.S.
App. LEXIS 11232, [WL] at *3 n.3. Mauthe does not
claim to be a potential direct purchaser of defendants’
services and defendants disclaim any intention to sell him
anything. Indeed, their fax to him recited as much, as it
said that the fax was not an attempt to sell him anything.
After our examination of the fax we have concluded that
there is no basis on which defendants can be held to have
violated the TCPA on the basis of the fax if the meaning
of the advertisement is viewed in a conventional way.
Consequently, we consider a possible broader basis for
liability predicated on the fact that this case involves third
parties beyond defendants and Mauthe, i.e., the users of
defendants’ database.
An example of a possible TCPA violation by the sending
of a fax to an entity other than a possible direct purchaser
of the sender’s product or services is a fax sent to a doctor
encouraging the doctor to prescribe a particular drug to
the doctor’s patients who, rather than the doctor, are the

6a
Appendix A
likely purchasers of the sender’s product. Id. We refer to
liability in such situations as “third-party based liability,”2
as the sender is not attempting to sell the recipient
anything. Id. But in NIA because potential third-party
based liability was not at issue, we did not address the
question of whether there could be a third-party based
liability by reason of the sending of a fax. That issue now
is squarely before us because defendants sent the fax to
Mauthe in order to update their database to be accessed
by third parties who were not the recipients of defendants’
faxes and the faxes were not an attempt to sell Mauthe or
the putative class members anything.
Mauthe advances his third-party based liability
argument on a theory that, although he was not a
purchaser of defendants’ products or services, defendants
violated the TCPA because they had a profit motive in
sending him the fax so that the fax should be regarded as
an advertisement. Mauthe asserts that defendants sought
the information in the fax to enhance the accuracy of their
database and thus increase their profits. We agree with
the stated factual basis for his claim because defendants
were using the faxes to improve the accuracy of their
database. However, the TCPA only prohibits unsolicited
advertisements, not any and all faxes even if sent for a
commercial purpose. It seems beyond doubt that a fax
does not become an advertisement merely because the
sender intended it to enhance the quality of its products or
services and thus its profits. After all, a commercial entity
2. We used the term “third-party based liability” even though
the parties do not do so in their briefs. They do, however, refer to
third parties in their briefs.

7a
Appendix A
takes almost all of its actions with a profit motivation.
But as we opined in NIA, “[a]dvertising is the action of
drawing the public’s attention to something to promote
its sale. So to be an ad, the fax must promote goods or
services to be bought or sold, and it should have profit as
an aim.” NIA, 2019 U.S. App. LEXIS 11232, 2019 WL
1752591, at *2 (internal quotations, quotation marks and
citations omitted).
We are satisfied that to establish third-party based
liability under the TCPA a plaintiff must show that the fax:
(1) sought to promote or enhance the quality or quantity
of a product or services being sold commercially; (2) was
reasonably calculated to increase the profits of the sender;
and (3) directly or indirectly encouraged the recipient to
influence the purchasing decisions of a third party. As we
explained in NIA, “the fax must convey the impression
. . . that a seller is trying to make a sale[.]” NIA, 2019
U.S. App. LEXIS 11232, 2019 WL 1752591, at *2. It is not
enough that the sender sent a fax with a profit motive—in
order to show that the sender is trying to make a sale,
there must be a nexus between the fax and the purchasing
decisions of an ultimate purchaser whether the recipient of
the fax or a third party. The liability standard articulated
in NIA, and the one we articulate here in a third-party
based liability situation, hinges on whether the fax was
somehow intended to influence a potential buyer’s decision
in making a purchase, irrespective of whether the sender
sent the fax to the potential buyer or to a third party
and must have been intended to or at least be capable of
influencing a buyer’s purchasing decision. If we adopted
a less demanding standard, we would risk extending too

8a
Appendix A
far the prohibitions that the TCPA established. We believe
that our construction of the TCPA faithfully adheres to
what the TCPA facially prohibits, while broadly construing
the TCPA to provide plaintiffs with an alternative theory
of liability even when the fax is not sent to potential direct
purchasers of a defendant’s products or services.
We give an example that supports our conclusion and
demonstrates why we must be concerned with possible
overreaching of the application of the TCPA that we derive
from the analogous field of telemarketing, a practice that
the TCPA regulates. In dealing with telemarketing the
TCPA prohibits
any telephone call to any residential telephone
line using an artificial or prerecorded voice to
deliver a message without the prior express
consent of the called party, unless the call
is initiated for emergency purposes [or is]
exempted by rule or order by the Commission
under paragraph (2)(B).
47 U.S.C. § 227(b)(1)(B). Under the rules promulgated
by the Federal Communications Commission, calls are
exempt from the statutory prohibition “if not made for
a commercial purpose” or, as germane here, if they do
“not include or introduce an advertisement or constitute
telemarketing.” 47 C.F.R. § 64.1200(a)(3). The FCC has
also opined that “calls conducting research, market
surveys, political polling or similar activities [that]
do not involve solicitation as defined by our rules” are
exempt from the statutory prohibition on artificially
prescribed calls. In the Matter of Rules and Regulations

9a
Appendix A
Implementing the TCPA, 7 F.C.C.R. 8752, 1992 WL
690928, at *15, 7 FCC Rcd. 8752, 8774 ¶ 41 (Oct. 16, 2012).
Consequently, a marketing firm making calls to conduct
pure market research, and a pollster conducting a political
poll by telephone, do not violate TCPA’s telemarketing
prohibition. 3
Commercial entities conducting research sometimes
do so by sending faxes. Under Mauthe’s theory, these
firms would violate TCPA’s prohibition on the sending
of an unsolicited fax advertisement because they would
send their faxes for the purposes of improving their
operations and thus their profits. But such faxes would
not promote the sale of any products or services, or seek
to influence the purchasing decisions of a potential buyer.
We will not adopt a construction that broadly would limit
commercial activities to the extent Mauthe invites. See
NIA, 2019 U.S. App. LEXIS 11232, 2019 WL 1752591,
at *2-3. The requirement for establishing TCPA liability
that we set forth is that there be a nexus between the
sending of the fax and the sender’s product or services and
the buyer’s decision to purchase the product or services
accomplishes the TCPA objective without infringing on
other commercial activities.4
3. We note that there is a petition for expedited declaratory
ruling on whether market research surveys are fax advertisements
as defined by the TCPA pending before the FCC. See Lyngaas v.
J. Reckner Assocs., Inc., No. 2:17-cv-12867, 2019 U.S. Dist. LEXIS
4632, 2019 WL 166227, at *1-2 (E.D. Mich. Jan. 10, 2019).
4. In fact, under Mauthe’s theory an employer with a
letterhead listing its address, telephone number and products and
services would violate the TCPA if it sent a fax on its letterhead

10a
Appendix A
Turning to the facts of this case, Mauthe’s claim does
not survive our standard for third-party based liability
or any other theory of liability under the TCPA. Though
defendants intended their faxes to obtain information
enhancing the quality of their services, and thus reasonably
calculated their faxes to increase their profits by keeping
their database updated, the faxes did not attempt to
influence the purchasing decisions of any potential buyer,
whether a recipient of a fax or a third party. Moreover, the
fax sent to Mauthe did not encourage him to influence the
purchasing decisions or those of a third party. Though we
appreciate the annoyance and/or harassment Mauthe felt
receiving unsolicited faxes, we are constrained in reaching
our decision by what the TCPA actually prohibits—it does
not prohibit all unsolicited faxes, just advertisements.
We will not distort the meaning of “advertisement” to
accommodate Mauthe’s case. Therefore, we will uphold
the District Court’s conclusion that defendants’ fax was
not an “advertisement” under the TCPA.
The District Court also held that the fax was not a
pretext to more commercial solicitation. Optum, 2018
U.S. Dist. LEXIS 125796, 2018 WL 3609012, at *7. As we
stated in NIA, we have not endorsed and do not now do so
the pretext theory of liability under the TCPA, a matter
that is still open. 2019 U.S. App. LEXIS 11232, 2019 WL
1752591, at *3. However, for the same reasons that we set
forth in NIA in rejecting a pretext claim even if such a
claim is potentially viable, Mauthe’s pretext claim fails
to inquire about the qualifications of a job applicant from the
applicant’s former employer because employee selection is
certainly related to making a profit.

11a
Appendix A
because there was no evidence that defendants “intended
to send Mauthe any future faxes, let alone any more
advertisements.” 2019 U.S. App. LEXIS 11232, [WL] at
*3 n.4. We recognize that defendants may send Mauthe
another fax to verify his information, but that fax will
no more be an advertisement than the fax here if it is of
similar content. Moreover, there is no evidence that the
fax that defendants already sent was a pretext so that it
later could send an additional fax. Thus, we also will uphold
the District Court’s ruling that defendants’ fax was not a
pretext to further commercial solicitation.
Inasmuch as we hold that the District Court did not
err in granting summary judgment in favor of defendants
on Mauthe’s TCPA claim, the only federal claim in the
case, we also hold that the Court did not err in declining
to exercise supplemental jurisdiction over Mauthe’s state
law claim. In this regard a court does not err if it declines
to exercise supplemental jurisdiction over state claims
after it dismisses a federal claim on which its jurisdiction
is based in the absence of extraordinary circumstances.
Bright v. Westmoreland Cty., 380 F.3d 729, 751 (3d Cir.
2004). There are no extraordinary circumstances here.
V. CONCLUSION
For the foregoing reasons we will affirm the order of
July 27, 2018.

12a
Appendix B
APPENDIX B — MEMORANDUM
OPINION OF
THE UNITED STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF PENNSYLVANIA,
FILED JULY 27, 2018
IN THE UNITED STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF PENNSYLVANIA
CIVIL ACTION NO. 17-1643
ROBERT MAUTHE, M.D., P.C.,
Plaintiff,
v.
OPTUM, INC. AND OPTUMINSIGHT, INC.,
Defendants.
July 27, 2018, Decided
July 27, 2018, Filed
MEMORANDUM OPINION
Smith, J.
The defendants maintain a national database of health
care providers. The plaintiff is a health care provider. This
case arises out of a facsimile (“fax”) the defendants sent
to the plaintiff to verify information in their database.
After receiving this single-page fax, the plaintiff filed the
instant lawsuit alleging that the fax was an unsolicited
advertisement in violation of the Telephone Consumer

13a
Appendix B
Protection Act. The plaintiff also contends that the fax
unlawfully converted his printer paper and toner.
The parties have now engaged in limited discovery
on the issue of whether the fax was an advertisement or
a pretext for an advertisement, and the defendants have
moved for summary judgment. Discovery has confirmed
that the fax was neither an advertisement nor a pretext for
an advertisement. The fax did not market the availability
of a good or service, nor was it a pretext for a larger
scheme to market the availability of a good or service.
Accordingly, the court grants the motion for summary
judgment on count I and declines to exercise jurisdiction
over the pendant state law conversion claim.
I. PROCEDURAL HISTORY
On April 11, 2017, the plaintiff, Dr. Robert Mauthe,
filed a complaint alleging that the defendants, Optum,
Inc. and Optum Insight, Inc. (collectively referred to as
“Optum”), sent him an unsolicited fax that (1) violated
the Telephone Consumer Protection Act (“TCPA”) and
(2) unlawfully converted his fax paper and printer toner.
See Compl. at 9, 17, Doc. No. 1. Optum filed a motion to
dismiss on June 15, 2017. Doc. No. 13. After the parties
briefed the motion, the court granted the motion and
dismissed the complaint because the fax “does not [on its
face] advertise the commercial availability of any good or
service . . . .” July 19, 2017 Order, Doc. No. 24.
On August 16, 2017, the plaintiff filed an amended
complaint, which Optum moved to dismiss on August 22,

14a
Appendix B
2017. Doc. Nos. 25, 28. The court denied this motion to
dismiss without prejudice to Optum raising its arguments
in a motion for summary judgment. See Oct. 17, 2017 Order,
Doc. No. 33. In the order denying the motion to dismiss,
the court also ordered the parties to perform limited
discovery on the issue of whether Optum’s “fax was an
advertisement or a pretext, i.e., whether it was part of
a larger advertising scheme.” Id. The parties concluded
limited discovery on March 2, 2018. See Jan. 31, 2018
Stipulation and Order, Doc. No. 39.
On April 6, 2018, Optum filed a motion for summary
judgment. Doc. No. 40. The plaintiff filed a response on
April 23, 2018. Doc. No. 47. Optum filed a reply to the
response to the motion on April 30, 2018. Doc. No. 50. The
court heard oral argument on the motion for summary
judgment on May 18, 2018, and the motion is now ripe for
adjudication.
III. DISCUSSION
A. Standard of Review
Pursuant to Rule 56(a) of the Federal Rules of Civil
Procedure “[t]he court shall grant summary judgment if
the movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to summary
judgment as a matter of law.” Fed. R. Civ. P. 56(a). The
court must examine the evidence presented in the light
most favorable to the non-movant. See Boyle v. Cty. of
Allegheny Pennsylvania, 139 F.3d 386, 393 (3d Cir. 1998).

15a
Appendix B
B. Undisputed Facts
After reviewing the record, the court finds that
there is no genuine dispute as to any material fact. The
undisputed material facts are as follows: the plaintiff is
a private health care provider. See Pl.’s Resp. to Defs.’
Separate Statement of Undisputed Facts at ¶ 1 (“Pl.’s
Statement”), Doc. No. 47-1. Optum runs a “national
referential database of [health care] providers.” Pl.’s
Statement at ¶ 6; see also Eide Dep. at 16, Doc. No. 40-5.
This national database “includes various data points about
medical providers, including provider name, address,
phone number, fax number, specialty, National Provider
Identifier, medical school, and residency.” Pl.’s Statement
at ¶ 7. The database is usually “purchased and used by
organizations that manage a health care network and
pay claims, such as third-party payors or a third-party
administrator.” Id. at ¶ 8. “The organizations that purchase
and use the Database typically have 5,000-plus providers
in their network.” Id. at ¶ 10 (internal quotation marks
omitted). These organizations purchase the Database to,
inter alia, “(a) correct[] inaccurate provider data in their
directories, (b) identify[] potential providers to fill gaps
in their networks, and (c) validat[e] provider information
before paying a claim, such as an insurance claim.” Id.
at ¶ 11 (citations omitted). “Optum does not market the
Provider Database to individual provider offices.”1 Defs.’
1. The plaintiff disputes this fact, see Pl.’s Statement at ¶ 12,
but the dispute is not genuine. The plaintiff has pointed to no facts
indicating that Optum markets the database to individual provider
offices. See id. Optum, on the other hand, has provided extensive
deposition testimony indicating that not only does Optum not

16a
Appendix B
Separate Statement of Undisputed Facts at ¶ 12 (“Defs.’
Statement”), Doc. No. 40-2.
In its efforts to update and verify the information
in the database, Optum sends faxes to health care
providers asking them to verify their information. See
Pl.’s Statement at ¶¶ 16-18; see Bellis Dep. at 58-63. Optum
sent one of these faxes to the plaintiff. See Am. Compl. at
Ex. A; Bellis Dep. at 30-31. The single-page fax listed the
contact information Optum currently has for the plaintiff
and asked him to “[c]heck below if the data displayed is
correct.” Am. Compl. at Ex. A. If the data was wrong, the
fax asked the plaintiff to “write the correct data in the
space provided.” Id. The fax also describes the Optum
database and why the plaintiff is receiving the fax:
As part of ongoing data maintenance of our
Optum Provider Database product, Optum
regularly contacts healthcare practitioners
to verify demographic data regarding your
office location(s). This outreach is independent
of and not related to your participation in any
Optum network. By taking a few minutes to
market the database to individual providers, but there is not even
a foreseeable reason for an individual provider to purchase the
database. See Eide Dep. at 141 (“Q. Do you market the provider
database to provider offices? A. We don’t.”); id. at 140 (“There is
no use case that I can think of why an individual provider would
purchase this data.”); Bellis Dep. at 79 (“Q. Mr. Bellis, are you
aware of whether Optum markets the provider database to provider
offices? A. Not to my knowledge.”), Doc. No. 40-6; id. (“Q. Is there
any reason why a provider would ever want to purchase the provider
database? A. No.”).

17a
Appendix B
verify your practice information is current,
your information will be promptly updated in
Optum Provider Database.
This data is used by health care related
organizations to aid in claims payment, assist
with provider authentication and recruiting,
augment their own provider data, mitigate
healthcare fraud and publish accurate provider
directories.
Id. As indicated above, discovery has confirmed the
accuracy of these statements regarding the purpose of
the fax and the nature of the database.
The fax also provides a link to a page on Optum’s
website. See id. The link is to a FAQ (frequently asked
questions) page and is included on the fax to assist in
answering any questions health care providers may have
regarding why they are receiving the fax and its purpose.
See id.; see also Pl.’s Statement at ¶ 24. “The purpose of
the FAQ is to provide answers to common questions from
recipients of the fax.” Pl.’s Statement at ¶ 24. The fax also
states that if the plaintiff has questions or would like to opt
out of future faxes, he can e-mail or call Optum (the fax
provides both an e-mail address and a phone number). See
Am. Compl. at Ex. A. Finally, the fax states that “[t]here
is no cost to you to participate in this data maintenance
initiative. This is not an attempt to sell you anything.”
Id. And discovery has confirmed that this fax was not
an attempt to sell anything to the plaintiff. See Defs.’
Statement at ¶ 12; Eide Dep. at 140-41; Bellis Dep. at 79.

18a
Appendix B
C. Analysis
The TCPA prohibits sending unsolicited advertisements
“to a telephone facsimile machine.” 47 U.S.C. § 227(b)(1)
(C). Thus, the issue here is whether the fax sent to the
plaintiff is an advertisement under the TCPA. The TCPA
defines an “unsolicited advertisement” as “any material
advertising the commercial availability or quality of any
property, goods or services, which is transmitted to any
person without that person’s prior express invitation or
permission, in writing or otherwise.” 47 U.S.C. § 227(a)
(5). The FCC has interpreted this section of the TCPA
and has taken a broad view of the meaning of “unsolicited
advertisement.” See FCC Rules and Reg ulations
Implementing the Telephone Consumer Protection Act
of 1991; Junk Fax Prevention Act of 2005, 71 Fed. Reg.
25967, 25973; see, e.g., Carlton & Harris Chiropractic,
Inc. v. PDR Network, LLC, 883 F.3d 459, 466 (4th Cir.
2018) (applying FCC interpretation to hold fax offering
free e-book was an unsolicited advertisement).
This court is bound by the FCC’s interpretation. See
Carlton & Harris Chiropractic, 883 F.3d at 466 (holding
that district court was bound by FCC’s interpretation).
In a typical case involving an agency’s interpretation of
a statute it administers, the court would evaluate the
validity of the agency’s interpretation under Skidmore
or Chevron. See Chevron, U.S.A., Inc. v. Nat. Res. Def.
Council, Inc., 467 U.S. 837, 104 S. Ct. 2778, 81 L. Ed.
2d 694 (1984); Skidmore v. Swift & Co., 323 U.S. 134, 65
S. Ct. 161, 89 L. Ed. 124 (1944). Here, unlike the typical
case, “the Hobbs Act prevents the district court from

19a
Appendix B
considering the validity of final FCC orders.” Grind
Lap Servs., Inc. v. UBM LLC, No. CIV. A. 14-6448, 2015
U.S. Dist. LEXIS 152134, 2015 WL 6955484, at *3 (N.D.
Ill. Nov. 10, 2015) (citation and internal quotation marks
omitted). Final FCC orders are only reviewable by “filing
a petition in the court of appeals for the judicial circuit
where the petitioner resides or has its principal office, or
in the Court of Appeals for the D.C. Circuit.” Carlton, 883
F.3d at 464. Because neither of the parties have challenged
the FCC’s rule in that manner, the court is bound by
the FCC’s interpretation to the extent that it covers the
conduct in this case. See id.
Generally, there are two ways a fax can violate
subsection 227(b)(1)(C) of the TCPA. First, a fax
will violate the TCPA if, on its face, it promotes “the
commercial availability or quality of any property, goods
or services . . . .” 47 U.S.C. § 227(a)(5); see Physicians
Healthsource, Inc. v. Janssen Pharms., Inc., No. CIV. A.
12-2132, 2013 U.S. Dist. LEXIS 15952, 2013 WL 486207,
at *4-6 (D.N.J. Feb. 6, 2013). Second, even if a fax does
not facially promote a good or service, it will nonetheless
violate the TCPA if it is a pretext for a larger advertising
scheme. See, e.g., FCC Rules and Regulations, 71 Fed.
Reg. at 25973 (“[S]urveys that serve as a pretext to
an advertisement are subject to the TCPA’s facsimile
advertising rules.”).
Additionally, under the FCC’s interpretation any
materials that promote or offer free services and
products are “advertis[ements] [that promote] the
commercial availability or quality of any property, goods

20a
Appendix B
or services . . . .” 2 47 U.S.C. § 227(a)(5); see FCC Rules
and Regulations, 71 Fed. Reg. at 25973 (“[F]acsimile
communications regarding [] free goods and services,
if not purely ‘transactional,’ would require the sender
to obtain the recipient’s permission beforehand, in the
absence of an EBR.”); see also Carlton, 883 F.3d at 46768. As the FCC Rule notes, “‘free’ publications are often
part of an overall marketing campaign to sell property,
goods, or services. . . . [W]hile the publication itself may be
offered at no cost to the [facsimile] recipient, the products
promoted within the publication are often commercially
available.” FCC Rules and Regulations, 71 Fed. Reg. at
25973. In other words, the FCC has determined that offers
for free goods and services are so frequently “part of an
overall marketing campaign to sell [something],” that
the statute’s purpose will be achieved by preemptively
banning all offers for free goods and services. See
Carlton, 883 F.3d at 468. Notably, if this rule were not in
place, a plaintiff would have to show that the offer for a
free good or service was a pretext for a larger, “overall
marketing campaign to sell [something].” FCC Rules and
Regulations, 71 Fed. Reg. at 25973.

2. There is disagreement in the federal courts regarding the
scope of this rule. Specifically, some courts require plaintiffs to still
prove that the fax has a “commercial nexus,” whereas others have
held that it is a de facto rule. Compare Physicians Healthsource,
Inc. v. Boehringer Ingelheim Pharms., Inc., 847 F.3d 92, 96 (2d Cir.
2017) (requiring the plaintiff to prove the existence of a commercial
nexus before TCPA liability can be imposed), with Carlton, 883 F.3d
at 467-68 (noting that the FCC has “declined to require such a factbased inquiry”).

21a
Appendix B
For most other faxes, if they do not facially “advertis[e]
the commercial availability or quality of any property,
goods or services,” 47 U.S.C. § 227(a)(5), they must be
proven to be pretextual before TCPA liability can be
imposed. See FCC Rules and Regulations, 71 Fed. Reg. at
25973. For example, the FCC contrasts faxes promoting
free goods or services with informational communications
and surveys. An informational communication is one that
“contain[s] only information, such as industry news articles,
legislative updates, or employee benefit information . . . .”
Id. Unless they are pretextual, informational messages
and surveys do not violate the TCPA. See id. (providing
guidance on how to determine whether a fax “is a bona
fide ‘informational communication’” and stating that “any
surveys that serve as a pretext to an advertisement are
subject to the TCPA’s facsimile advertising rules”).
In the instant case, the fax sent to the plaintiff was
not (1) an offer to provide the database for free; (2) an
offer to sell the database to the plaintiff or anyone else
(i.e., it was not an advertisement); or (3) a pretext to an
overall scheme to sell the database to the plaintiff or
anyone else. Undeterred, the plaintiff argues that “[f]axes
sent in furtherance of indirect commercial solicitations
or transactions with third parties are ‘advertisements’
within the meaning of the TCPA.” Pl.’s Resp. in Opp. to
Def.’s Mot. for Summ. J. at 5 (“Pl.’s Resp.”), Doc. No. 47
(emphasis omitted). He contends that because Optum
sends this fax to improve the quality of its database, see
id. at 11, the fax is sent “in furtherance of . . . transactions
with third parties . . .,” id. at 5. This argument simply has
no support in the law.

22a
Appendix B
The TCPA only prohibits faxes “advertising the
commercial availability or quality of any property, goods
or services . . . .” 47 U.S.C. § 227(a)(5). This language
does not prohibit faxes sent in furtherance of indirect
commercial solicitations or transactions with third parties.
Advertising is “‘[t]he action of drawing the public’s
attention to something to promote its sale . . . .’” Sandusky
Wellness Ctr., LLC v. Medco Health Sols., Inc., 788 F.3d
218, 221 (6th Cir. 2015) (quoting Black’s Law Dictionary
(10th ed. 2014)). Unless they promote the sale of an item
by drawing public attention to it, faxes sent in furtherance
of indirect commercial solicitations or transactions with
third parties are not unsolicited advertisements. See 47
U.S.C. § 227(a)(5).
And while the FCC has taken considerable liberty in
broadly interpreting the language chosen by Congress,
it has stopped far short of the interpretation espoused by
the plaintiff. The FCC’s interpretation broadens the scope
of TCPA liability to cover faxes promoting free goods or
services, but it says nothing about faxes that indirectly
create commercial benefits. 3 In fact, many examples the
FCC provides of faxes that do not fall within the scope
of the TCPA, such as industry news articles, likely would
fall within the scope of the TCPA if the court were to find
that TCPA liability attached to any unsolicited fax sent
by a business that could foreseeably further transactions
with third parties.
3. The interpretation frequently distinguishes between
commercial and non-commercial faxes. See FCC Rules and
Regulations, 71 Fed. Reg. at 25973. But it does not—and likely
could not (for constitutional reasons)—impose a blanket ban on all
commercial faxes. See id.

23a
Appendix B
Further, the plaintiff’s argument is unsupported by
the cases he cites. He relies heavily on Carlton for his
proposed interpretation. See Pl.’s Resp. at 5-6. In Carlton,
the defendants sent a fax to the plaintiff that offered “a
free copy of the defendant[s’] e-book, Physicians [sic]
Desk Reference . . . .” Id. at 6; see Carlton, 883 F.3d at
462-63. The court was faced with the question of whether
the fax offering this free desk reference constituted an
“unsolicited advertisement.” See Carlton, 883 F.3d at
463. As noted above, the FCC rule specifically states that
offers to provide free goods or services are “unsolicited
advertisements.” See FCC Rules and Regulations, 71 Fed.
Reg. at 25973.
The district court was concerned about the scope of
the FCC’s rule. See Carlton, 883 F.3d at 466-68 (discussing
district court’s concern). TCPA liability typically requires
that a fax both (1) promote something and (2) be of a
commercial nature. See id.; see also Sandusky Wellness
Ctr., 788 F.3d at 222 (“[T]o be an ad, the fax must promote
goods or services to be bought or sold . . . .” (emphasis
added)); Physicians Healthsource, 2013 U.S. Dist. LEXIS
15952, 2013 WL 486207, at *2 (“Congress intended
that non-commercial faxes fall outside the TCPA’s
prohibition.”). It was apparent that the fax promoted the
free e-book, but the district court expressed concern
that the FCC’s blanket prohibition on faxes promoting
free goods or services “would read commercial out of
the TCPA’s definition of unsolicited advertisement . . . .”
Carlton, 883 F.3d at 468 (citation and internal quotation
marks omitted) (emphasis added). The Fourth Circuit
indicated that the district court’s apprehension was

24a
Appendix B
unwarranted because the defendant “receive[d] money
from pharmaceutical companies whose drugs are listed
in the Physicians’ Desk Reference.” Id. In light of this, it
was possible that “the amount of money” the defendant
“receives turns on how many copies of the Physicians’
Desk Reference it distributes.” Id. It was also possible that
the defendant was incentivized to distribute e-books and
that it was acting to “further its own economic interests”
rather than provide a free service. Id.
The court’s “further its own economic interests”
statement was not a blanket holding that anytime a fax
indirectly furthers the sender’s own economic interests it
violates the TCPA. See id. Rather, the court was indicating
the fax was commercial in nature and that the commercial
nexus aspect of TCPA liability was likely satisfied. See id.
at 468-69. Yet, the plaintiff here argues that whenever
a business sends a fax to “further its own economic
interests” the fax is an “unsolicited advertisement” under
Carlton. See Pl.’s Resp. at 5. This reading of Carlton is
plainly incorrect. But even if it was not, the statement is
contained in dicta and the decision is not binding on this
court. Thus, the court would still decline to follow it.
The plaintiff also cites Mussat v. Enclarity, Inc.,
No. CIV. A. 16-07643, 2018 U.S. Dist. LEXIS 35142,
2018 WL 1156200 (N.D. Ill. Mar. 5, 2018), at length. See
Pl.’s Resp. at 7. Mussat presents almost the exact same
factual scenario as the case at hand. In that case, the
district court denied a motion to dismiss because (1) the
fax declared the commercial availability of the sender’s
services, and (2) it was foreseeable that the fax was a

25a
Appendix B
pretext for a larger advertising scheme. Mussat, 2018 U.S.
Dist. LEXIS 35142, 2018 WL 1156200, at *4. Despite its
factual similarity, Mussat holds little persuasive value for
the court’s resolution of the instant motion.
For one, the case was resolved at the motion to dismiss
stage and the defendant benefited from the generous,
deferential 12(b)(6) standard. See 2018 U.S. Dist. LEXIS
35142, [WL] at *1. Additionally, the court disagrees with
Mussat’s formulation and application of the rule. The
TCPA, as interpreted by the FCC, prohibits unsolicited
faxes that advertise the commercial availability of goods
or services. Advertise, as discussed above, is synonymous
with “promote.” See Sandusky, 788 F.3d at 222 (“[T]o be
an ad, the fax must promote goods or services to be bought
or sold . . . .”). But the district court in Mussat held that the
plaintiff survived dismissal because “on its face, [the fax]
declares the commercial availability of [the defendant’s]
services. The fax states that [the defendant] validates
and updates health care provider contact information
for its clients so that its clients can use the information
or clinical summaries, prescription renewals, and other
sensitive communications.” Mussat, 2018 U.S. Dist.
LEXIS 35142, 2018 WL 1156200, at *4 (emphasis added).
But for a fax to violate the TCPA it must do more than
declare the commercial availability of a good or service—it
must “promote” the availability of a good or service. See
Sandusky, 788 F.3d at 222.
On pretext, Mussat is even less persuasive. Pretext
is a fact-intensive inquiry. At the 12(b)(6) stage in
Mussat, the plaintiff only needed to allege sufficient facts

26a
Appendix B
indicating that fax was plausibly pretextual. See 2018 U.S.
Dist. LEXIS 35142, 2018 WL 1156200, at *3. Here, the
court can resolve the pretext issue on the merits rather
than by simply reviewing the allegations in the amended
complaint.
Additionally, in Matthew N. Fulton, D.D.S., P.C. v.
Enclarity, Inc., No. CIV. A. 16-13777, 2017 U.S. Dist.
LEXIS 28439, 2017 WL 783499 (E.D. Mich. Mar. 1,
2017), the district court addressed the same fax at issue
in Mussat and reached the opposite conclusion. See 2017
U.S. Dist. LEXIS 28439, 2017 WL 783499, at *4-5. The
district court granted the defendant’s motion to dismiss
and held that the fax did not constitute an unsolicited
advertisement within the meaning of the TCPA.
In light of these reasons, the court rejects the
plaintiff ’s arg ument that any fa x that indirectly
furthers a commercial transaction with a third party is
an advertisement. Accordingly, the court will analyze
whether the fax is an advertisement on its face, and if not,
whether the fax is a pretext for an advertisement.
Turning to the facial analysis first, the fax listed the
contact information Optum currently had for the plaintiff,
and asked him to “[c]heck below if the data displayed is
correct.” Am. Compl. at Ex. A. If the data was wrong,
the fax asked the plaintiff to “write the correct data in
the space provided.” Id. The fax also included a brief
description of the Optum database and told the plaintiff
why he was receiving the fax:

27a
Appendix B
As part of ongoing data maintenance of our
Optum Provider Database product, Optum
regularly contacts healthcare practitioners
to verify demographic data regarding your
office location(s). This outreach is independent
of and not related to your participation in any
Optum network. By taking a few minutes to
verify your practice information is current,
your information will be promptly updated in
Optum Provider Database.
The data is used by health care related
organizations in claims payment, assist with
provider authentication and recruit, augment
their own provider data, mitigate healthcare
fraud and publish accurate provider directories.
Id. The fax also provided a link to a FAQ page on Optum’s
website. See id. Additionally, the fax stated that if the
plaintiff had questions or wanted to opt out of future faxes,
he could e-mail or call Optum. See id. The fax provided
both an e-mail and a phone number. See id. The fax also
stated that “[t]here is no cost to you to participate in this
data maintenance initiative. This is not an attempt to sell
you anything.” See id.
The court has previously determined that the fax is
not an advertisement on its face. See July 19, 2017 Order,
Doc. No. 24. There is no reason to depart from this prior
determination:

28a
Appendix B
The fax at hand mentions Optum’s database, but
does not indicate that it is a product available for
sale. . . . The fax does not express any intent to
earn profit, receive payment, or sell anything.
The fax at hand simply does not advertise the
commercial availability of any good or service,
and the fact that Optum could gain some
ancillary commercial benefit is not enough to
make the fax qualify as an advertisement.
Id. at 1 n.1 (citation omitted).
At most, the fax “declares” the availability of a good
or service. However, as noted above, merely declaring
the availability of a good or service is insufficient. The
fax must “‘draw[] the public’s attention to something
to promote its sale . . . .’” Sandusky, 788 F.3d at 221
(quoting Black’s Law Dictionary (10th ed. 2014)). Here,
the statements in the fax describing Optum’s database do
not draw the public’s attention to it to promote its sale.
See Am. Compl. at Ex. A. Rather, the fax provides the
recipient with information about the database so that the
recipient will understand why he or she is receiving the
fax. See id. In sum, the fax was not an effort to promote
the availability of the database nor was it an effort to sell
the database to the plaintiff. See Def.’s Statement at ¶ 12;
Eide Dep. at 140-41; Bellis Dep. at 79.
Because the fax is not facially an advertisement,
the court must consider whether the fax was a pretext
for a larger advertising scheme. The classic example of
a pretext for an advertisement is a free seminar where

29a
Appendix B
the seminar is really just a chance for the defendant to
“advertise commercial products and services.” Fulton,
2017 U.S. Dist. LEXIS 28439, 2017 WL 783499, at *2
(citation and internal quotation marks omitted). Similarly,
offers for free publications (such as the ones prohibited
by the FCC’s interpretation) are often “part of an overall
marketing campaign to sell property, goods, or services.”
FCC Rules and Regulations, 71 Fed. Reg. at 25973.
Discovery, however, has shown that the fax here was not
a pretext for a larger advertising scheme. Rather, the fax
was exactly what it claimed to be on its face—a legitimate
effort by Optum to verify the information in its database.
See Pl.’s Statement at ¶¶ 16-18; Bellis Dep. at 58-63.
Nonetheless, the plaintiff argues that the fax
was pretextual because the fax was sent as
part of [defendant’s] fax outreach verification
program intended to gather information that
would improve the accuracy and quality of
their Database and related services, which
Defendants not only then sell or license to
third-party clients, but which Defendants
market to such potential clients with express
representations about Database accuracy and
the fax outreach verification program that
generates such accuracy.
Pl.’s Resp. at 18. This argument is the functional
equivalent of the plaintiff’s indirect future economic
benefit argument. See Pl.’s Resp. at 5. As discussed above,
this proposed rule is too broad; it is not supported by the
language of the TCPA, the FCC’s rule, or the relevant

30a
Appendix B
case law. That Optum will use this fax to improve the
quality of its database does not transform the fax into
an advertisement or make it pretextual. See Physicians
Healthsource, 2013 U.S. Dist. LEXIS 15952, 2013 WL
486207, at *4.
Additionally, the fact that the fax includes a link to
Optum’s FAQ page on its website does not make the fax
pretextual. The FAQ link is informative, i.e., it is included
to provide additional information to the recipient of the
fax so that he or she can fully understand why he or she is
receiving the fax. See Pl.’s Statement at ¶¶ 22-25. It also
provides an easy means for the recipient to find out how
the information he or she gives to Optum will be used. See
id. For these reasons, the court finds that the fax was not
a pretext for an advertisement. Because the fax is neither
an advertisement nor a pretext for an advertisement, the
plaintiff’s TCPA claim fails.
The only remaining claim is the plaintiff’s state law
conversion claim. See Am. Compl. at 18. In the Third
Circuit, “where the claim over which the district court has
original jurisdiction is dismissed before trial, the district
court must decline to decide the pendent state claims
unless considerations of judicial economy, convenience, and
fairness to the parties provide an affirmative justification
for doing so.” Hedges v. Musco, 204 F.3d 109, 123 (3d Cir.
2000). Here, the parties have only taken discovery on
the issue of whether the fax was a pretext. See Oct. 17,
2017 Order, Doc. No. 33. Accordingly, the court finds that
there is no affirmative justification warranting the court
to exercise supplemental jurisdiction over this additional
claim.

31a
Appendix B
IV. CONCLUSION
The TCPA prohibits unsolicited fax advertisements.
The fax at issue in this case is neither an advertisement
on its face nor a pretext for an overall marketing scheme.
Rather, the fax was a genuine effort to gather and verify
information for Optum’s health care provider database.
Accordingly, the court grants the motion for summary
judgment on Count I of the amended complaint and
will dismiss without prejudice Count II of the amended
complaint.
The court will issue a separate order.
BY THE COURT:
/s/ Edward G. Smith
EDWARD G. SMITH, J.

32a
Appendix C —Appendix
DENIAL COF rehearing
of the united states court of appeals
FOR THE THIRD CIRCUIT, FILED JUNE 25, 2019
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 18-2894
ROBERT W. MAUTHE, M.D., P.C.,
Individually and on behalf of all
others similarly situated,
v.
OPTUM INC., OPTUMINSIGHT, INC.,
ROBERT W. MAUTHE, M.D., P.C.,
Appellant.
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Civ. No. 5-17-cv-01643)
Honorable Edward G. Smith, District Judge
SUR PETITION FOR REHEARING
BEFORE: SMITH, Chief Judge, and MCKEE,
A MBRO, CH AGA RES , JORDA N, H A RDIM A N,
GREENAWAY, Jr., SHWARTZ, KRAUSE, RESTREPO,
BIBAS, PORTER, MATEY, and GREENBERG, Circuit
Judges

33a
Appendix C
The petition for rehearing filed by appellant, Robert
W. Mauthe, M.D., P.C., in the above captioned matter
having been submitted to the judges who participated in
the decision of this Court and to all the other available
circuit judges of the Court in regular active service, and
no judge who concurred in the decision having asked
for rehearing, and a majority of the circuit judges of the
circuit in regular active service who are not disqualified
not having voted for rehearing by the Court en banc, the
petition for rehearing by the panel and the Court en banc
is denied. Judge Greenberg’s vote is limited to denying
rehearing before the original panel.
BY THE COURT:
/s/Morton I. Greenberg
Circuit Judge

